HHS/OIG, Audit -"Review of Pension Costs Claimed for Medicare Reimbursement By Blue Cross Blue Shield of South
Carolina for Fiscal Years 1994 Through 2002,"(A-07-04-00176)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement By Blue Cross Blue Shield of South Carolina for Fiscal
Years 1994 Through 2002," (A-07-04-00176)
February 18, 2005
Complete
Text of Report is available in PDF format (313 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine the allowability of pension costs that South Carolina claimed for Medicare reimbursement
for fiscal years (FY) 1994 through 2002.  We found that South Carolina underclaimed $366,306 in Medicare pension costs
for FYs 1994 through 2002 because it did not identify its Medicare segments in accordance with its Medicare contract and
did not update its Medicare segment assets in accordance with Cost Accounting Standards (CAS) 412 and 413.  South
Carolina claimed pension costs of $24,460,796 for Medicare reimbursement; however, the allowable Medicare pension costs
were $24,827,142.  We recommend that South Carolina revise its Final Administrative Cost Proposals (FACP) for FYs
1994 through 2002 to claim additional CAS pension costs of $366,306.  Additionally, South Carolina should implement
procedures to (1) ensure that its Medicare segments are identified in accordance with the Medicare contract and (2) update
its Medicare segment assets in accordance with CAS 412 and 413.  South Carolina disagreed with the draft report finding
and recommendation because the CAS allowable pension costs were determined by prorating the calendar year CAS allowable
amounts to arrive at the fiscal year amount.  South Carolina stated that the previous pension review did not reflect
this adjustment and its method of applying the CAS amount has been consistently applied.